HHS/OIG-Audit--"Review of the California Department of Health Services
Reimbursement for Clinical Laboratory Services Under the Medicaid Program, (A-09-95-00072)"
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of the California Department of Health Services Reimbursement
for Clinical Laboratory Services Under the Medicaid Program," (A-09-95-00072)
May 28, 1996
Complete
Text of Report is available in PDF format (372 KB). Copies can also be
obtained by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final audit report points out that the California Department of Health
Services (State agency) does not have adequate edits in place to prevent the
payment of unbundled or duplicated claims for certain clinical laboratory services.
A statistical sample of 150 claims showed that 116 claims were not paid correctly.
We estimate that the State agency overpaid and should recover from providers
$4,013,490 (Federal share) for unbundled/duplicated laboratory tests for calendar
years 1993 and 1994. In addition to financial adjustments, we recommended that
the State agency implement additional edits to detect and prevent payments
for unbundled or duplicate laboratory services, and notify providers of the
proper billing procedures for the services identified in our audit.